                             Closeout for M99030011

    On March 24, 1999, the complainant1 alleged that her signature on the
Certification Page of a n NSF award was forged.2 She said she had suggested to the
PI, who was a colleague in the same department, that they should prepare a
proposal to NSF requesting funding to host a conference. She said the PI wanted to
write the proposal himself, and she did not want to submit competing proposals, so
she did not prepare one. She said she spoke with their Department Head3 about
her suggestion and the PI'S response. She said this was the last time she spoke of
the proposal or anyone spoke to her about it. The proposal was awarded and she
participated in the conference as she would have had she been co-PI. She was never
told the PI had added her as co-PI, and she had not signed the Certification Page.
    We spoke with several people a t the University, including the Dean4 who told us
he had looked into the problem. We learned the PI and the Head had spoken about
including the complainant (and others) as co-PIS. Apparently, there was some
confusion between the PI and the Head about notifying the other co-PIS because
each thought the other would take care of it, but, ultimately, neither told the
complainant she had been added a s a co-PI. An additional problem was that the
person who signed the proposal (the signer)5 was unaware of the correct procedure
to sign for someone else and had not (a) obtained explicit permission from the
complainant before signing her name, (b) told the complainant afterward that her
name had been signed, and (c) made any indications, by initial or signature, that
someone else had signed for the complainant. The Dean said the signer was
uncertain if she had permission, but regardless, the signature without any
indication that someone else had made it was a mistake. He said he notified the
Department Heads that they were to inform their staffs that they should sign for
someone only with explicit authorization to do so and to indicate that the signature
was made by someone else. He said that should prevent the problem from
happening again.
   We sent the relevant parties letters indicating our support for the Dean's
instructions to the Department Heads.. We believe the Dean's instructions were
appropriate and should prevent problems like this from occurring in the future.
   This inquiry is closed and no further action will be taken on this case.
cc: Integrity, IG




   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).
   5 (footnote redacted).
                                      Page 1of 1
